U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


       MISCELLANEOUS RECEIPTS,
    U.S. FISH AND WILDLIFE SERVICE

             REPORT NO. 00-I-50
              NOVEMBER 1999
                                                                          E-IN-FWS-005-98


             United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240


                                                               NOV -9 1999

Memorandum

To:       Assistant Secretary for Fish and Wildlife and Parks

From:
     cior Assistant Inspector General for Audits

Subject: Audit Report on Miscellaneous Receipts, U.S. Fish and Wildlife Service <No. 00-I-50)

This report presents the results of our audit of miscellaneous receipts collected by the U.S.
Fish and Wildlife Service. We initiated this audit in response to a June 1997 memorandum
from the Service’s Acting Director, who requested that we review payments for the
mitigation of damages caused by oil and gas exploration activities on Service lands
(specifically, refuges in coastal Louisiana) and determine whether the payments were
“calculated correctly and commensurate with the damage done.” We expanded the objective
to determine whether the Service (1) established adequate guidance and controls over the
assessment, collection, and use of fees that are charged at national wildlife refuges; (2)
applied consistent fees or charges that provide a reasonable return to the Government and
that enable the Service to recover related administrative costs; and (3) complied with
applicable Government requirements.

At 3 1 refuges contacted and 15 refuges visited, we found that the Service had set fees for the
use of refuge resources at amounts that provided a reasonable return to the Government.
While more than $32.8 million in fees was assessed by five refuges in Louisiana and Texas
during fiscal years 1990 through 1998, we found that only $26 million was deposited into
U.S. Treasury accounts, as required by law.

At the five refuges, where mineral rights generally were privately held, the Service charged
fees for the mitigation of potential damages from oil and gas exploration activities, even
though the Service did not.have authority to assess such fees to mineral rights holders. These
fees totaled $6.8 million from fiscal years 1990 through 1998 (see Appendix 1). The Service
arranged for these fees to be retained for refuge use. That is, the five refuges directed
exploration companies to deposit the fees into accounts maintained by a nonprofit
organization (the Fish and Wildlife Foundation), to remit the fees to the Service for deposit
into the refuges’ contributed funds accounts, or to pay the fees to refuge suppliers or
grantees.
Had the Service been authorized to assess fees for the mitigation of damages to refuges, the
fees should have been deposited into U.S. Treasury accounts, in accordance with the Refuge
Revenue Sharing Act and the Miscellaneous Receipts Act. Rather, having arranged for the
unauthorized assessment of damage mitigation fees, the Service improperly spent fees of
about $2.3 million to augment refuge operations. For example, the Service used receipts of
$596,737 to finance grants to universities that conducted research on the refuges, $175,000
to pay the salaries of two refuge employees, and $33,322 to buy a vehicle. In buying these
goods and services, the Service did not follow Federal procurement procedures that provide
safeguards against improper and wasteful expenditures.

Service officials collected mitigation fees without authorization and retained and used the
fees for refuge operations because they considered the assessment of such fees to be a
standard industry practice and the receipts to be donations/gifts or the payment of claims.
In our opinion, however, the payments were not donations or gifts because they were not
conveyed gratuitously without consideration, nor were they payments of claims because the
amount of the damages had not been determined.

Finally, we found that the Service made a deduction from the receipts it deposited into the
Treasury fund for its costs to administer economic use activities on the refuges. The Refuge
Revenue Sharing Act does authorize the Service to pay administrative costs from the
receipts, but Service regulations require that the administrative cost deduction be based on
the actual or estimated costs of administration. However, the Service had not established
policies or procedures for determining its administrative costs. As such, the Service retained
receipts of about $21.3 million from fiscal years 1990 through 1998 for undetermined
administrative expenses. It may have overrecovered or under-recovered its administrative
costs and may not have deposited the appropriate amount into the U.S. Treasury fund.

We made five recommendations to the Service to help ensure that receipts from economic
activities on refuges are assessed, collected, and deposited properly, in accordance with
applicable Federal laws and Service regulations. We made another recommendation that the
Service develop and implement procedures and policies to ensure that cost deductions for
administering economic use activities on refuges are based on a supportable and reasonable
method of estimating such costs.

In the September 1, 1999, response (Appendix 4) to the draft report from the Acting
Director, U.S. Fish and Wildlife Service, the Service concurred with Recommendations A.4,
AS, and B. 1. Based on the response, we consider these recommendations resolved but not
implemented. Accordingly, the recommendations will be referred to the Assistant Secretary
for Policy, Management and Budget for tracking of implementation. The Service did not
concur with Recommendations A.l, A.2, and A.3 and included with the response an
August 16,1999, memorandum from the Acting Regional Solicitor, Southeast Region, to the
Service’s Southeast Regional Director, in which the Solicitor discussed the legal basis for
the Service’s nonconcurrence with these recommendations. Based on the response, we
revised Recommendation A.1 and request that the Service respond to the revised
recommendation. We urge the Service to reconsider its responses to Recommendations A.2
and A.3, which are unresolved (see Appendix 5).                                  .

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by January 7, 2000. The response should include the information
requested in Appendix 5.

Section 5(a) of the Inspector General Act (Public Law 95-542, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the Congress. In
addition, the Office of Inspector General provides copies of audit reports to the Congress,

We appreciate the assistance of Service personnel in the conduct of our audit.
                                               CONTENTS
                                                                                                                    Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . . . . . . . . . . . . . . . . . . . 1

    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .................... 1
    OBJECTIVE AND SCOPE ........................ .................... 1
    PRIOR AUDIT COVERAGE ...................... .................... 3

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . _ .                             . . . . . . . . . . . . . . . . . . . . 4

    A. MISCELLANEOUS RECEIPTS ................. .................... 4
    B. COST DEDUCTIONS ......................... . . . . . . . . . . . . . . . . . . . 16

APPENDICES

     1.    CLASSIFICATION OF MONETARY AMOUNTS . . . . . _ . . . . . . . . . . . . . 18
     2.    REFUGE REVENUE SHARING ACT RECEIPTS AND
            PAYMENTS RELATED TO ECONOMIC ACTIVITIES
            ON NATIONAL WILDLIFE REFUGES, FISCAL
            YEARS1990THROUGH1998 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  . . 19
     3.    SITES VISITED OR CONTACTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . .20
     4.    U.S. FISH AND WILDLIFE SERVICE RESPONSE . . . . . . . . , . . . . .              . . 22
     5.    STATUS OF AUDIT REPORT RECOMMENDATIONS _ . . . . . . . . .                       . . 32
                                      INTRODUCTION

BACKGROUND

The U.S. Fish and Wildlife Service’s mission is to conserve, protect, and enhance fish and
wildlife and their habitats. To perform this mission, the Service administers the National
Wildlife Refuge System, which consists of 516 national wildlife refuges, 38 wetland
management districts, and 50 coordination areas, all of which encompass more than
93 million acres of land. The Service conducts a variety of land, fish and wildlife, and public
use management activities on these lands. One such land management activity is the
economic development of natural resources on refuge lands. Through the issuance of special
use permits and other authorizations, the Service provides for the economic use of refuge
resources and for the payment of fees or other compensation for resource use.

The Refuge Revenue Sharing Act of 1935 (16 U.S.C. 7 15s) and the Service’s Refuge Manual
(5 RM 17) provide guidance on the types of special use activities that are authorized on
refuges. Specifically, the Refuge Manual (5 RM 17.3) states that “specialized use of a
national wildlife refuge may be permitted only when determined to be compatible with the
purpose(s) for which the refuge was established” and “consistent with refuge objectives and
applicable laws and policies.” Also, the Refuge Manual (5 RM 17.11) describes the policies
and procedures for administering economic activity on refuges, including permittee selection
procedures, fee approval authority, documentation processes, and fee disposition.

Regarding compensation for economic use activities on refuges, the Service’s Refuge
Manual (5 RM 17.7) requires refuges to establish the rates or fees to be charged for the use
of refuge resources. The Refuge Revenue Sharing Act requires the Service to deposit the
receipts from the economic use of refuge resources’ into a separate U.S. Treasury fund (the
National Wildlife Refuge Fund) and allows the Service to deduct from these deposits its cost
of administering economic use activities on the refuges. The amounts deposited into the
Treasury fund are required to be distributed as revenue-sharing payments to the counties in
which the refuges are located. In addition to the Refuge Revenue Sharing Act, the
Miscellaneous Receipts Act (3 1 U.S.C. 3302) provides for the deposit of receipts into the
General Fund of the Treasury when there is no statutory authority for alternative disposition,

OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the U.S. Fish and Wildlife Service
(1) established adequate guidance and controls over the assessment, collection, and use of
fees that are charged at the national wildlife refuges; (2) applied consistent fees or charges
that provide a reasonable return to the Government and that enable the Service to recover
related administrative costs; and (3) complied with applicable Government requirements.


’ Receipts covered by the Act include revenues from the sale or other disposition of hay, timber, minerals,
sand, gravel, and animals and from leases of public accommodations or facilities.

                                                    1
In particular, we reviewed damage mitigation fees paid by companies that conducted oil and
gas exploration activities in response to a June 4, 1997, request from the Service’s Acting
Director, who asked that we determine whether the payments “were calculated correctly and
commensurate with damages done.” Miscellaneous receipts from economic activities on
refuges that were deposited into the U.S. Treasury account and disbursed in accordance with
the Refuge Revenue Sharing Act (fiscal years 1990 through 1998) are listed in Appendix 2.

In addition to damage mitigation payments for oil and gas exploration activities, we selected
for review, on a judgmental basis, certain categories of miscellaneous receipts (such as
grazing, farming, and timber harvesting) at geographically dispersed refuges. In total, we
reviewed miscellaneous receipts totaling about $8.7 million received by 29 refuges or refuge
complexes during the period of fiscal years 1990 through 1998. Because the Service did not
maintain a complete, centralized database on all receipts from economic use activities (such
as the number of permits issued) and did not record all receipts from economic activities
conducted on refuges (as discussed in Finding A of this report), we could not determine the
total number of permits issued or the total amount of the receipts at the 46 refuges or refuge
complexes included in our review.

We conducted our audit at the locations listed in Appendix 3. To accomplish our objective,
we reviewed laws, regulations, Department of the Interior policies, and Service regulations
and accounting records pertaining to economic activities conducted on Service lands. We
also interviewed Service personnel at the Service’s headquarters, regional, and refuge
offices; officials from the Solicitor’s office; and representatives of the National Fish and
Wildlife Foundation. At our request, our Office of General Counsel reviewed the laws and
regulations governing the disposition and use of receipts collected by the Service for
mitigation of damages from oil and gas exploration activities and issued a legal opinion on
these issues. In addition, we reviewed and analyzed the accounting records of the National
Fish and Wildlife Foundation, which administered some of the funds collected from parties
engaged in the use of refuge resources.

The audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances. As part of the audit, we reviewed the Service’s internal controls
to the extent considered necessary to accomplish our objective. We found weaknesses in the
areas of assessing, depositing, and controlling miscellaneous receipts from oil and gas
exploration activities and other uses of refuge resources. These weaknesses are discussed
in the Findings and Recommendations section of this report. If implemented, our
recommendations should improve the internal controls in these areas. We also reviewed the
Departmental Report on Accountability for fiscal year 1998, which included information
required by the Federal Managers’ Financial Integrity Act, and the Service’s annual
assurance statement on management controls for fiscal year 1998. Based on these reviews,
we determined that none of the reported weaknesses were directly related to the objective and
scope of this audit.


                                              2
 PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports on the
 Service’s miscellaneous receipts. However, the Office of Inspector General issued the
 survey report “Farming Operations on National Wildlife Refuges, Region 1, U.S. Fish and
 Wildlife Service” (No. 94-I-408) in March 1994. The report stated that the Sacramento River
National Wildlife Refuge in California was authorizing a farmer, through a cooperative
 agreement, to harvest and sell crops and to use the proceeds to restore Refuge lands to
riparian habitat’ but that this action was not in conformance with Service policies and the
requirements of the Refuge Revenue Sharing Act. The report further stated that Refuge
management established a cooperative farming program with a nonprofit conservation
organization to use proceeds from the sale of excess crops to finance habitat restoration,
which was estimated to cost $10,000 per acre. The report contained four recommendations,
of which three recommendations were considered resolved and implemented and one
recommendation was considered resolved but not implemented.




*According to the report, riparian habitats are woodland regions adjacent to streams, sloughs, rivers, or lakes
where animals live and plants grow.

                                                       3
                   FINDINGS AND RECOMMENDATIONS

A. MISCELLANEOUS RECEIPTS

 The U.S. Fish and Wildlife Service established fees for the use of refuge resources at
 amounts that provided a reasonable return to the Government. During the survey phase of
 our audit, we reviewed the methods used by the Service to set fees for the use of refuge
resources and found that, in general, at the 3 1 refuges contacted and 15 refuges visited, the
 Service conducted surveys to determine local comparable rates for resource use and
established fees and charges based on the surveys. However, the Service did not implement
adequate controls to ensure that officials at five refuges3 in Louisiana and Texas assessed,
collected, and used miscellaneous receipts from certain economic activities on the refuges
in accordance with Federal laws and in compliance with Service regulations. Specifically,
at the five refuges, the Service (1) assessed mineral rights holders fees for potential damages
to the refuges, even though Federal laws and Service regulations did not authorize such
assessments; (2) did not deposit all receipts from economic activities into U.S. Treasury
funds, as required by law and the Service’s Refuge Manual; and (3) did not spend the
receipts in compliance with procurement regulations. Also, refuges in two regions did not
fully comply with Service guidance on issuing economic use permits. Service officials at
the five refuges said that they did not comply with applicable laws and regulations because
they considered the assessments of fees to mineral rights holders to be “standard industry
practices” and that they did not deposit the receipts into Treasury funds because they
considered the receipts to be donations which could be retained for refuge use. Also, refuge
officials said that the receipts were needed to compensate the refuges for the adverse effects
of oil and gas exploration activities. As a result, receipts of $6.8 million were not deposited
into U.S. Treasury accounts or made available to make payments to counties, as required by
the Refuge Revenue Sharing Act, of which a portion of these receipts were unauthorized
assessments to mineral rights holders who conducted oil and gas exploration activities on the
refuges. In addition, the Service spent receipts of about $2.3 million to augment refuge
operations, buying goods and services without following Federal procurement procedures
that provide safeguards against improper and wasteful expenditures.

Assessing Fees to Mineral Rights Owners

We found that officials at the five refuges without authorization assessed fees to entities that
held the subsurface rights to minerals on the refuges. These rights are referred to as reserved
or excepted mineral rights.4 To protect refuges from damage caused by oil and gas


3The five refuges are the Sabine National Wildlife Refuge in Hackberry, Louisiana; the Southeast Louisiana
Refuge Complex in Slide]], Louisiana; the Cameron Prairie National Wildlife Refuge in Bell City, Louisiana;
the Lacassine National Wildlife Refuge in Lake Arthur, Louisiana; and the Santa Ana National Wildlife Refuge
in Alamo, Texas.

4According to the Service Manual (612 FW 2.6) reserved rights are rights under which the owner of oil and
gas rights, when selling the land to the United States, reserves in the deed of conveyance the right to sell, lease,
explore for, and remove minerals on that land. Excepted rights are oil and gas rights that were outstanding to
third parties when the United States acquired title to the lands.

                                                        4
exploration activities, the U.S. Fish and Wildlife Service Manual (612 FW 2.9C) requires
 operators to obtain a performance bond or certificate of insurance for exploration,
 development, and production activities associated with Federally owned mineral rights.
 Further, the Manual (612 FW 2.9B) and the Code of Federal Regulations (50 CFR 29) state
that mineral rights owners are responsible for restoring the area in which they operate “as
nearly as possible to its condition prior to commencement of operations” (50 CFR 29.32),
 and the Manual (612 FW 2.9D) provides for the Service to “take legal action for damages,
secure an injunction, and where appropriate, seek criminal penalties” if the mineral rights
holder “exceeds the boundaries of what is reasonably necessary” to recover minerals and
does not restore the area. However, the Manual and the Code do not authorize the Service
to assess fees for potential damages to refuges from oil and gas exploration activities,
particularly if the exploration is conducted by or on behalf of mineral rights holders.
Specifically, the Manual (6 12 FW 2.9D) states that while the Service is authorized to assess
fees for the privilege of conducting explorations for Federally owned minerals, “the Service
has no legal authority to charge an owner for the right to develop outstanding or reserved oil
and gas rights.” (Emphasis added.) Also, the Service’s Southeast Regional Solicitor, in a
February 16, 1982, memorandum to the Southeast Regional Director, stated that “there does
not appear to be any legal basis for charging a fee to mineral owners, their lessees, and
assigns for the use of refuge lands in their exercise and enjoyment of the mineral rights
which were reserved or excepted from the title acquired by the government to the lands so
long as the surface use is reasonably necessary to the enjoyment of their rights.” Our
General Counsel, in an August 1998 legal opinion, supported the Regional Solicitor’s
position, stating, “The FWS [Fish and Wildlife Service] does not have the general authority
to impose charges for potential damages to the surface caused by exploration activities where
private entities own the oil and gas rights in the underlying lands.” Our General Counsel
further stated:

       While the regulation also states that ” lplersons conducting mineral operations
       on refuge areas must comply with all applicable Federal and State laws and
       regulations for the protection of wildlife and the administration of the area,”
       the regulation does not establish a permitting process or fee structure for
       exploration activities conducted by mineral rights owners. In contrast, . . .
       F WS [Fish and Wildlife Service] regulations do establish fees and charges for
       the grant of privileges on wildlife refuge areas and require that any economic
       use of natural resources of any wildlife refuge area must be authorized by
       appropriate permit. These regulations do not annlv to nrivatelv held mineral
       interests since owners who exploit their mineral interests are exercising their
       rights. not nrivileges. [Emphasis added.]

We also found that the refuges did not maintain documentation to show mineral ownership
when they recorded mitigation payments. Thus, although officials at the five refuges said
that refuge minerals generally were privately held, we could not determine what portion of
the receipts for the mitigation of potential damages ($6.8 million was paid from fiscal years
1990 through 1998) were attributable to payments made by or on behalf of companies that
held mineral rights. For example, in December 1996, the Southeast Louisiana Refuge
Complex issued a permit to a company that was authorized to conduct exploration activities

                                              5
by an oil company which held subsurface rights to minerals on a portion of the Complex.
Under the terms of the permit, the exploration company paid the Complex $739,200 and
received authorization to explore mineral deposits on the entire Delta National Wildlife
Refuge, of which about 90 percent (according to Southeast Regional officials) of the Refuge
consisted of acquired lands where the subsurface mineral rights were privately held.

According to Service officials, mineral rights holders were charged fees for potential
damages caused by their exploration activities because the Service was authorized to do                    SO


under a Louisiana law. However, our General Counsel found that the law, Landowner
Mitigation Rights (Louisiana Revised Statute 49:214:41 .E), does not authorize such
assessments. Rather, the law states that surface owners may require compensatory
mitigation. Also, our General Counsel said that Louisiana and other state laws provide that
mineral rights owners must exercise their rights with reasonable regard for the rights of
surface owners (Louisiana Revised Statute 3 1.11) and that they will be liable for damages
& if they breach this duty. Service officials also said that they assessed fees for the
mitigation of potential damages to the refuges because the assessments were a standard
industry practice that was not prohibited by law.

Depositing Receipts

In addition to having no authorization to assess mineral rights holders fees for the mitigation
of potential damages to refuges from oil and gas exploration activities, the Service also
improperly retained the fees. According to our General Counsel, had the fees been
authorized, the payments should have been deposited into U.S. Treasury funds, either the
General Fund of the Treasury, under the Miscellaneous Receipts Act, or into the National
Wildlife Refuge Fund, under the Refuge Revenue Sharing Act. At the five refuges, however,
the Service retained the receipts for refuge use rather than depositing the fees into Treasury
accounts. During fiscal years 1990 through 1998, Service officials at the five refuges
collected receipts for economic activities on refuges totaling over $32.8 million. Of this
amount, refuge officials improperly deposited receipts of $1.5 million into National Fish and
Wildlife Foundation accounts, deposited receipts of $5.1 million into contributed funds
accounts, and used receipts of $.2 miliion to pay vendors for goods and/or services for the
refuges. The remaining receipts, totaling $26 million, were properly deposited into a
Treasury account, as required by law.

    National Fish and Wildlife Foundation Accounts. From July 1990 through September
 1998, the Southeast Louisiana Refuge Complex6 and the Cameron Prairie and Lacassine
National Wildlife Refuges in Louisiana and the Santa AnaNational Wildlife Refuge in Texas
improperly arranged for the National Fish and Wildlife Foundation to establish accounts for
the deposit and use of receipts collected for oil and gas exploration and other activities. As


‘The National Fish and Wildlife Foundation is a charitable and nonprofit corporation and is not an agency or
establishment of the United States.

6The Southeast Louisiana Refuge Complex consists of the Atchafalaya, Big Branch Marsh, Shell Keys, Bogue
Chitto, Bayou Sauvage, Breton, and Delta National Wildlife Refuges.

                                                     6
of September 1998, deposits to these accounts totaled $1,923,463 (see Table l), of which
$1,5 10,972 was collected for the use of refuge resources (the remaining amount, $4 12,49 1,
was attributable to Service receipts from sources other than economic use activities).

   Table 1. Revenues Deposited Into U.S. Fish and Wildlife Foundation Accounts

                                                                       Less            Refuge
                                                                       Other           Resource
                      Refuge                      Deposits*         Revenues* *        Deposits
      Cameron Prairie                                  $81,800         $60,000          $21,800
      Lacassine                                         70,625                  0         70,625
      Santa Ana                                        114,942                 0        114,942
      Southeast Louisiana                          1,656,096           352,491        1,306,605
     Total                                        $1,923,463          $412,491       $1,510,972

     *Deposits were made between January 1990 and September 1998.
     **Other revenues (that is, revenues from sources other than economic use activities) include
     amounts that were deposited into U.S. Fish and Wildlife Foundation accounts which benefited the
     refuges. These amounts include court-ordered payments to refuges from private parties ($60,000),
     matching funds and interest accrued on Foundation accounts ($57,927), revenue that could not be
     verified as being paid for economic uses ($127,293), payments from private landowners for
     damages to private wetlands under an arrangement with the U.S. Army Corps of Engineers
     ($164,271), and payments received from a permit issued by the Corps of Engineers ($3,000).

The Project Leader at the Southeast Louisiana Refuge Complex stated that the deposit of
receipts into Foundation accounts was justified because the receipts were donations or gifts
and, as such, were not subject to the Act’s requirement that the funds should be deposited
into the Treasury fund. However, an August 1998 legal opinion from our Office of General
Counsel concluded that the receipts did not meet the legal definition of donations or gifts.
Specifically, the legal opinion found that the receipts, whether collected for exploration of
Federally owned mineral rights or pursuant to permitting arrangements or contracts with
mineral rights owners, could not be considered donations because they were not gratuitous
conveyances made without consideration. Our General Counsel further stated that even if the
receipts could be considered donations, the arrangement with the Foundation would violate
the Department of the Interior’s Donation Activity Guidelines, which forbid agencies or
employees from accepting or soliciting donations from prohibited sources under a
cooperative foundation program.

The Laccassine Refuge Manager stated that the Refuge did not deposit these receipts into the
Treasury fund because the companies paying the fees said that,the receipts should be used
to pay for Refuge improvements. Refuge officials also said that expenditures made from
Foundation accounts were not subject to Federal procurement regulations and that the funds
in Foundation accounts were used to supplement refuge operating budgets. Service
headquarters officials said that the refuges needed to retain the receipts to pay the cost of

                                                   7
damages caused by oil and gas exploration activities, which they described as extensive.
However, the officials provided no documentation to show the amount of such damages or
the cost of restoration. The officials also said that reimbursements for damages through other
means was undesirable because it would entail high costs for personnel and potential
litigation.

    Contributed Funds Accounts. During fiscal years 1990 through 1998, the four-refuges
in Louisiana improperly deposited receipts of $5,146,496 for the mitigation of potential
damages caused by oil and gas exploration and other activities into contributed funds
accounts reserved for refuge use, as shown in Table 2.

             Table 2. Revenues Deposited Into Contributed Funds Accounts

            Refuge              Deposits           Less Other Revenues*            Total Deposit
   Cameron Prairie                $730,980                                  0            $730,980
   Lacassine                       883,560                                  0             883,560
   Sabine                        3,397,465                                  0           3,397,465
   Southeast Louisiana             134.491                          $21.546                112.945

       Total                   $5.146.496                           $21,546             $5,124,950

  *“Other Revenues” includes amounts that were not generated from the issuance of economic use
  permits. We couId not determine whether deposits of $2 1,546 were paid for the economic use of refuge
  resources.

According to the Fish and Wildlife Service Manual (260 FW 4, “Contributed Funds”),
contributed funds received “from outside sources are gratuitous conveyances or transfers of
money or ownership in property (real or personal) to the Service without consideration.”
Because the receipts deposited into the contributed funds accounts were not “gratuitous
conveyances” but rather compensation for potential damages to refuge lands, we believe that
the refuges should have deposited these receipts into the Treasury funds pursuant to the
provisions of the Refuge Revenue Sharing Act and/or the Miscellaneous Receipts Act.
During our audit, we asked Service headquarters officials to provide information
demonstrating that the Service was authorized to retain the receipts in refuge-specific
accounts. However, the Service did not provide any documentation to support the
authorization.

    Fees Paid to Refuge Vendors and Grantees. From August 1990 to September 1997,
officials at the Sabine, Cameron Prairie, and Lacassine National Wildlife Refuges improperly
directed that companies pay fees of $200,038 for the mitigation of damages from oil and gas
exploration activities directly to Service vendors and grantees.




                                                   8
Using Receipts

At the five refuges, Service officials spent receipts of $2.1 million, which had been deposited
into Foundation and contributed funds accounts, to purchase a variety of goods and services
for refuge operations. From Foundation accounts, for example, the Service directed that
payments of $1.1 million be used for the following purposes: $75,580 for equipment
purchases and repairs, $10,279 for supplies, $184,882 for a research grant, $186,950 for
marine-related purchases for a Government-confiscated boat, $47,328 for aerial monitoring,
$17,30 1 for computer equipment, $33,322 for a sport utility vehicle, $47,294 for Foundation
administrative expenses, and $493,503 for other expenses.7 From funds deposited into the
refuges’ contributed funds accounts, the Service spent funds of more than $1 million as
follows: $411,855 on research grants, of which $343,765 was paid for research on alligator
nesting habits; $293,230 for equipment and equipment repairs; $10,990 for construction and
lumber; $40,300 for supplies; $3,439 for fuel; $2,088 for utilities; $! 1,237 for bankcard
charges; $37,545 for payroll; $1,565 for travel; and $232,5588 for other expenses. In
addition, the receipts of $200,038, which were directly paid to vendors and grantees, were
used for the following purposes: $113,23 8 for a research grant to a university to evaluate the
impact on vegetation of a seismic project, $82,000 to a university for an animal migration
study, and $4,800 for water control structures.

By using receipts in Foundation and contributed funds accounts to buy goods and services,
the Service was able to make purchases without following Federal procurement procedures
that require supervisory reviews and approvals of purchases, limit the amount of purchases
that can be authorized by contracting offkials, and promote competitive procurement
practices. Moreover, in purchasing items with the receipts, two of the refuges did not
comply with procurement regulations contained in the Fish and Wildlife Service Manual
(302 FW 1.9A) that limited a refuge’s procurement authority to amounts of $5,000 or less.
For example, offkials at the Southeast Louisiana Refuge Complex made 26 individual
purchases between November 1991 and June 1998 that exceeded the Refuge’s $5,000
procurement limitation. Specifically, by spending funds that should have been deposited into
Treasury accounts, four refuges augmented their operating budgets without the benefit of
Congressional and Service management oversight.

A Region 4 District Manager attributed the refuges’ retention and use of miscellaneous
receipts to their need for additional funding and insufficient Regional oversight. This
official stated that refuges in the Lower Mississippi were “very underfunded” and that he
believed the refuges retained and used the receipts to finance needed refuge improvements.
This official also stated that refuge managers made decisions on the use of fees “without
policy direction from the regional or headquarters offices.” Another Regional official stated
that regions differed in their interpretation of the proper disposition of fees for the use of
refuge resources. However, a February 6, 1984, memorandum from the Service’s Acting


‘Consists of 203 disbursements, the nature of which could not be identified from disbursement records.

‘Consists of 57 disbursements, the nature of which could not be identified from disbursement records.

                                                    9
Associate Director to the Regional Director, referring to a Solicitor’s opinion that had been
issued in January 1984, stated that receipts from oil and gas exploration activities “should
be deposited in accordance with the Revenue Sharing Act.”

Controls Over Permit Issuance

We found that officials at the five refuges had not fully implemented Refuge Manual (5 RM
17) procedures for issuing economic use permits. Specifically, the Manual requires that (1)
fee schedules be established for economic use activities; (2) fees exceeding the refuge
                               9
manager’s warrant authority (as established by the regional office) be approved by the
regional office; (3) economic use permits include the limitations and conditions under which
the permit is granted, the exact fees charged, and the manner in which the fees should be
paid; (4) prenumbered permits be used; and (5) the receipt and/or disposition of funds be
recorded in logs.

We reviewed 123 permits and 25 other transactions issued by the five refuges between
October 1989 and September 1998 and found that none of the permits were processed fully
in accordance with these requirements. Although the refuges generally established fees in
compliance with the Refuge Manual requirements, maintained logbooks to record the funds
received or ledgers to record expenditures, and included the limitations and conditions under
which the permits were granted, Service officials in Regions 2 and 4 had not established a
warrant authority level for refuges in Louisiana and Texas, as required by the Manual, and
neither region had issued prenumbered economic use permits to these refuges.

Recommendations

We recommend that the Director, U.S. Fish and Wildlife Service:

     1. Discontinue the practice of charging fees for the mitigation of potential damages to
national wildlife refuges from oil and gas exploration activities associated with privately held
subsurface mineral rights.

    2. Discontinue the practice of establishing accounts with the National Fish and
Wildlife Foundation and of depositing into the accounts funds received for economic use
activities, including fees for the mitigation of damages, on national wildlife refuges. In
addition, any funds remaining in Foundation accounts should be deposited into the U.S.
Treasury funds, as required by law.

     3. Discontinue the practice of establishing contributed funds accounts with proceeds
received for the economic use of national wildlife refuge resources, including fees for the
mitigation of potential damages to refuges. In addition, any funds remaining in contributed
funds accounts should be deposited into the U.S. Treasury funds, as required by law.


‘According to the Refuge Manual (5 RM 17.11 (B)), a warrant authority is a set amount of revenue a refuge
manager is authorized to collect through the issuance of an economic use permit.

                                                    10
    4. Establish and implement controls to ensure that miscellaneous receipts from
economic activities on national wildlife refuges (including fees for the mitigation ofpotential
damages to retiges) are assessed, collected, and deposited in accordance with applicable
laws and Service regulations.

     5. Establish procedures and processes to ensure that the regions and refuges comply
with the requirements of the Refuge Manual (5 RM 17) regarding economic activities
conducted on retige lands, including the establishment of warrant authorities for permits
issued by refuges, the use of prenumbered permits, and the proper disposition of refuge
receipts.

U.S. Fish and Wildlife Service Response and Office of Inspector General
Reply
In the September 1,1999, response (Appendix 4) to the draft report from the Acting Director,
U.S. Fish and Wildlife Service, the Service concurred with Recommendations 4 and 5 and
did not concur with Recommendations 1, 2, and 3. The Service also included an
August 16,1999, memorandum from the Acting Regional Solicitor, Southeast Region, to the
Service’s Southeast Regional Director, in which the Solicitor discussed the legal basis for
the Service’s nonconcurrence with Recommendations 1,2, and 3. Based on the response,
we revised Recommendation 1 and request that the Service provide a response to the revised
recommendation and that it reconsider its responses to Recommendations 2 and 3, which are
unresolved (see Appendix 5).

Recommendation 1. Nonconcurrence.

     U.S. Fish and Wildlife Service Response. The Service stated that it differed with our
legal interpretations “regarding authorities to collect and use fees associated with oil and gas
seismic activities on the refuges.” The Service also said that “under State law,” it had the
right to restore the surface or to require operators to pay for surface damages to the refi.lges
and that “clarification of legal authorities related to collection and use of receipts from
environmental damages caused predominantly by oil and gas seismic activities on refuges
is crucial to [the Service’s] ability to respond to the concerns raised in the audit.” The
Service also said, “Since we have a difference of opinion over legal authorities, we
recommend that this question be remanded to the Solicitor’s Office . . . for clarification.”

The Service’s Acting Regional Solicitor agreed that the Service “has no authority to grant
a seismic permit with respect to privately owned minerals” but said that the Service has
“consistently asserted” that its collections do not “constitute authorization to conduct seismic
operations.” The Acting Regional Solicitor said that the legal opinion provided by our
General Counsel (a finding that the collections were unauthorized) was “not based upon any
recitation of law or precedent” and that “there are sound legal reasons for disputing [the
Office of Inspector General’s] conclusion that the Service lacks authority to collect for




                                               11
surface damages in the form of shot hole fees.“‘O The Acting Regional Solicitor cited the
United States Code (31 U.S.C. 3711 (a)), which provides for the collection and/or
compromise of claims by Federal agencies, as support for its statement. The Acting
Regional Solicitor noted that the Service reserves the right to “assert additional claims over
and above the shot hole fees, if such fees do not cover all of the damages.” The Acting
Regional Solicitor also stated that the Service’s fees were “nothing more than a standardized
means of calculating the amount of the surface owner’s claim arising from damages caused
by the seismic operation.”

The Acting Regional Solicitor said that if the Service were to seek correction of damages by
the operator and, failing that, institute litigation for monetary damages, “an intolerable
burden” would be placed on Service personnel, the Office of the Solicitor, and the
Department of Justice “to try cases that could more easily be resolved administratively.”

      Office of Inspector General Reply. We revised the recommendation, deleting
reference to the need for the identification of mineral rights ownership in permit issuance
because this matter is not essential to the underlying issue of whether the Service is
authorized to assess fees to holders of mineral rights. Regarding the Service’s comments on
its “right under State law” to seek restoration or payment for surface damages to refuges, our
recommendation did not address the Service’s efforts to seek restoration or its collection of
payments for the actual costs of damages. Rather, the recommendation pertained to the
practice of seeking payment for the “potential” cost of mitigating damages when they may
not have occurred and/or when the actual cost of the damages had not been determined.
Even if the Service is authorized to assess “upfront” fees, we believe that the fees are Federal
receipts that should be deposited into U.S. Treasury accounts.

Regarding the Acting Regional Solicitor’s comment that we did not cite “law or precedent”
in finding that the Service was not authorized to assess fees, we provided the Service with
a memorandum from our General Counsel which contained numerous references to Federal
laws, regulations, case authority, and prior Solicitors’ opinions that stated that the Service
could not assess fees to mineral rights holders under a permitting process. Because the
Service obtained the receipts by issuing special use permits that referred to the operators as
permittees, we consider the fees to be payments made under a permitting process. Also, we
cited the Fish and Wildlife Service Manual (612 FW 2.9) which provides for the issuance
of a permit for mineral exploration only when the deed to the property recognizes the right
to require a permit. With respect to fees for exploration, the Manual (6 12 FW 2.9D) states
that the Service “has no’legal authority to charge an owner for the right to develop
outstanding or reserved oil and gas rights. However, charges can be assessed if other than
reasonable surface damage occurs.” (Emphasis added.)

We disagree with the Acting Regional Solicitor’s statement that the Service is authorized to
collect fees for the mitigation of potential damages because the damages “fall within the


““Shot hole fees” are defmed by the Acting Regional Solicitor as the exploration fees charged by the Service
to seismic operators for conducting oil and gas exploration activities on Service lands.

                                                     12
 definition of a ‘claim,“’ which the Service has the right to collect. According to the Code
 of Federal Regulations (4 CFR 101.2), to qualify as a claim, “an appropriate agency oflicial”
‘must determine the amount of funds or property that is “owed to the United States from any
 person, organization, or entity.” We found that the fees cannot be considered as payments of
 claims because the Service has not determined the extent and cost of damages caused by the
 oil and gas exploration activities. Furthermore, Title 3 1, Section 37 11, of the United States
 Code, cited by the Regional Solicitor, establishes general procedures for agencies to follow
 in collecting claims but does not authorize the Service to receive or to collect payments for
 the mitigation of potential damages to the refuges.

We also disagree that the collection of fees for potential damages to refuges is a standard
industry practice, as illustrated by IP Timberlands Operating Co., Ltd. v. Denmiss Corp., 657
So.2d 282 (La. Ct. App. 1995), which was cited by the Acting Regional Solicitor in the
response. The Acting Regional Solicitor stated that in this case, the Court acknowledged that
the collection of shot hole fees for surface damages was a “common practice.” However, our
General Counsel reviewed the case and found that the Court had ruled that the payment of
a “shot hole fee” as compensation for damages caused by mineral rights holders under a
permitting arrangement was not authorized. Although the Court recognized that the
assessment of upfront shot hole fees was a method of payment used to compensate mineral
lessees or mineral rights holders for the right to explore their minerals, the Court made no
determination that this was an appropriate method of compensating surface owners for
surface damage.

We consider seeking restoration or monetary compensation for the actual cost of damages
to be the Service’s only currently authorized options for remediating damages to refuges
caused by mineral rights holders. Also, existing laws and regulations only authorize the
Service to exercise these options when mineral rights holders conduct exploration activities
in a negligent manner. If the Service finds that its current authorization does not adequately
protect the Government’s interests, it should seek legislative authorization to charge mineral
rights holders fees for the mitigation of potential damages to the refuges.

Recommendation 2. Nonconcurrence.

    U.S. Fish and Wildlife Service Response. The Service said that there is “no basis for
considering this practice [the establishment of accounts with the National Fish and Wildlife
Foundation] as beyond our legal authority.” The Service further stated that the matter should
be referred to the Office ofthe Solicitor.

The Acting Regional Solicitor said that although “monetary fees received directly by the
Service must be deposited in the miscellaneous receipts of the Treasury,” fees for the
mitigation of potential damages were not revenues from the sale of minerals “or other
privileges” and thus were not subject to the requirement that they should be deposited into
a U.S. Treasury account. The Acting Regional Solicitor referred to shot hole fees as “a
surrogate for the seismic operator’s obligation to correct the damages done to refuge
resources” and said that the operator could “discharge this obligation by actually correcting
the damages or contracting with a third person to perform the corrective action.” The Acting


                                              13
Regional Solicitor said that an investigation should be undertaken “to ascertain whether the
Foundation possesses the legal authority to serve as the seismic operator’s agent for the
correction of surface damages on the refuge.” The Acting Regional Solicitor further said that
the Service did not “believe that the monies collected for surface damages have to be actually
spent correcting the damages done.”

      Office of Inspector General Reply. Under the basic principles of appropriations law:
all monies received for the Government from any source must be deposited into U.S.
Treasury accounts unless there is specific statutory authority for alternative disposition.
Because the collections were related to oil and gas exploration activities on Federal land, we
consider the fees to be Federal receipts. Since we did not locate nor did the Service provide
US with any statutory authority for alternative disposition of these receipts, the monies must

be deposited into Treasury accounts, as required by Federal law.

We also disagree with the Acting Regional Solicitor’s statement that the Foundation acted
as the “agent” for the oil and gas exploration companies. The operators did not enter into
agreements with the Foundation to perform refuge restoration work on their behalf. Rather,
the Foundation, under an agreement with the Service, served as the Service’s agent,
accepting receipts from oil and gas exploration companies and financing the refuges’
operations. We also consider the deposit of Federal receipts into a non-Governmental
account to be inconsistent with Federal appropriations law.

Recommendation 3. Nonconcurrence.

     U.S. Fish and Wildlife Response. The Service requested that the issue of whether
contributed funds accounts should be discontinued and the account funds deposited into
Treasury funds be “remanded to the Office of the Solicitor for resolution.” The Service also
said that it was authorized to accept gifts and other contributions under the Fish and Wildlife
Act (16 U.S.C. 742f(b)( 1)). The Service further stated, “Unless we are advised otherwise by
the Solicitor’s office, we believe this provision to be adequate legal authority for acceptance
of conditional contributions such as those that have been accepted for oil and gas seismic
activities.”

     Office of Inspector General Reply. We do not consider the receipts to be donations
or contributions that can be deposited into contributed funds accounts because the fees were
paid by companies that conducted mineral exploration activities on the refuges and the
payments were made undeiagreements related to these activities. According to our General
Counsel, to be considered contributions, the receipts would have to represent gifts, donations,
or bequests that were conveyed gratuitously without consideration (that is, without providing
for the donor’s economic interests). Also, Volume 2, Chapter 6, of “Principles of Federal
Appropriations Law,” issued by the General Accounting Office in 1992, states that the
“statutory authority to accept gifts does not include fees and assessments exacted
involuntarily.” We found that the fees generally were associated with the issuance of special
use permits, which established the terms and conditions for the conduct of oil and gas
exploration activities on the refuges, and we found no indication that the payments were
made voluntarily and apart from the exploration activities conducted by mineral rights


                                              14
holders. Further, the payors were “prohibited sources” because their activities were
monitored by the Service; thus, the Service was not allowed to solicit or accept the payments
as contributions.




                                            15
B. COST DEDUCTIONS

The U.S. Fish and Wildlife Service retained a portion of its miscellaneous receipts to pay
* administrative costs without determining or estimating the costs of processing permits and
administering special use activities on refuges. The Refuge Revenue Sharing Act states that
expenses incurred in connection with the administration of revenue-producing and revenue-
sharing activities may be deducted from payments made to the U.S. Treasury fund.
However, the Service did not collect and analyze data to determine its administrative costs
and had not established policies and procedures for administrative fee determinations. As
a result, the Service, which retained receipts totaling about $2 1.3 million from fiscal years
1990 through 1998 for administrative expenses, did not know whether it had over-recovered
or underrecovered its costs of administering economic use activities on refuges or deposited
the appropriate amount into the Treasury fund.

Administering Economic Uses

Refuge officials perform several administrative functions related to the oversight of
economic use activities on the refuges. Guidance on these administrative functions is
contained in the Refuge Manual (5 RM 17 and 20), which requires regional directors to
provide oversight of economic use activities on the refuges to ensure that the activities are
conducted in compliance with Service regulations. Specifically, the Refuge Manual requires
refuge managers to develop and maintain lists of parties interested in using refuge resources,
perform compatibility determinations, award permits for specialized uses, perform fee
determinations, monitor specialized uses to ensure compliance with permit provisions, and
nominate refuge collection officers who are responsible for controlling and managing
receipts. The Refuge Manual (5 RM 17.9B) also provides guidance on the refuge manager’s
determination of the cost of administering specialized uses as follows:

        Costs will be determined or estimated from the best available records
        (additional cost accounting systems should not be developed solely for this
        purpose). The cost computation shall cover the proportionate share of direct
        and indirect costs to the refuge carrying out the activity, including but not
        limited to:
             (1) Salaries, employee leave, travel expense, rent, cost of fee
             collection, postage, maintenance, operation and depreciation of
             buildings and equipment;
             (2) A proportionate share of the refuge’s overhead costs; and
             (3) The costs of law enforcement, research, establishing standards,
             and regulation, to the extent they are determined to be properly
             chargeable to the activity.

We found that the Service had no procedures or processes for estimating the cost of
administering economic use activities on refuges. According to a Service headquarters
official, the Service’s Division of Realty directed the Service’s finance center to deduct from
the miscellaneous receipts deposited into the Treasury fund “about $2.4 million” per year


                                              16
as compensation for the Service’s cost to administer economic use activities on the refuges.
The official also said that because the Service had “no formula” or “clear cut way” of
determining the cost of administering refuge economic use activities, it had not imposed a
requirement that the refuges should compute or estimate such costs. Also, the official said
that “the amount of recovered costs had been artificially capped” to minimize the amount
deducted from receipts that were deposited into the Treasury fund. Based on Service
records, we determined that deductions of $2 1.3 million were made during fiscal years 1990
through 1998 from receipts subject to deposit into the Treasury fund. Because the amount
of these deductions was not based on estimated or actual administrative costs, the Service
may have under-recovered or overrecovered its administrative costs or not remitted the
appropriate amount to the United States Treasury.

Recommendation

We recommend that the Director, U.S. Fish and Wildlife Service, develop and implement
procedures and policies to ensure that cost deductions made from Refuge Revenue Sharing
Act receipts are based either on the Service’s actual cost of administering economic use
activities on national wildlife refuges or on a supportable and reasonable method of
estimating such costs.

U.S. Fish and Wildlife Service Response and Office of Inspector General
Reply
In the September 1,1999, response (Appendix 4) to the draft report from the Acting Director,
U.S. Fish and Wildlife Service, the Service concurred with the recommendation.
Based on the response, we consider the recommendation resolved but not implemented
(see Appendix 5).




                                             17
                                                    APPENDIX 1

     CLASSIFICATION OF MONETARY AMOUNTS                   .’


                               Funds To Be Put To
    Finding: Area                  Better Use

Oil and gas exploration
 and other fees                   $6.8 million




                          18
                                                                                                  APPENDIX 2


       REFUGE REVENUE SHARING ACT RECEIPTS AND PAYMENTS
               RELATED TO ECONOMIC ACTIVITIES ON
                  NATIONAL WILDLIFE REFUGES,
                 FISCAL YEARS 1990 THROUGH 1998


                                                        Amount of            Total            Total
                                                         Payment           Payment          Payment
          Gross            cost            Net            From             to Local         Due Local       Percent
FY       Receiuts       Deductions       Receipts      Appropriation     Government*       Government       Paid

90      $5,935,083      %2,209,121       $3,725,962        $8,904,000     $12,629,962     . $16,221,621        77.9

91        7,090,000       2,245,489       4,844,5 11       10,942,800       15,787,3 11      16,875,3 11       93.6

92       6,746,380        2,446,545       4,299,835        11,848,800       16,148,635       18,030,646        89.6

93       6,452,5 14       2,434,412       4,018,102        11,748,283       15,766,385       19,309,148        81.7

94        5,920,3 17      2,183,707       3,736,610        12,000,000       15,736,610       20,208,042        77.9

95        7,062,504       2,391,764       4,670,740        11,977,ooo       16,647,740       21,588,652        77.1

96       6,681,411       2,446,769        4,234,642        10,779,ooo       15,013,642       22,846,549        65.7

97        8,995,OOO       2,347,699       6,647,30 1       10,779,000       17,426,301       24,048,949        72.5

98       9.559.000       2.624.000        6.935.000        10.779.000       16.604.174       26.674.150        62.0

       $64.442.209     $21.329.506     $43.112.703       $99.757.883     $141.760,760     $185.803.068         76.3


*Actual payments are made after the close of the fiscal year using carryover net receipts and appropriated funds (if
necessary) to compensate for any shortfall in payments to counties, as discussed in the “Background” section of this
report.




                                                         19
                                                                                 APPENDIX 3
                                                                                   Page .l of 2

                          SITES VISITED OR CONTACTED

               Site                                   Location

Southeast Region                                      Atlanta, Georgia
       Southeast Louisiana Refuges Complex            Slidell, Louisiana
       Sabine NWR                                     Hackberry, Louisiana
       Cameron Prairie NWR                            Bell City, Louisiana
       Lacassine NWR                                  Lake Arthur, Louisiana
       Piedmont NWR                                   Round Oak, Georgia
       Bayou Cocodrie NWR*                            Ferriday, Louisiana
       Catahoula NWR*                                 Rhinehart, Louisiana
       Lake Ophelia NWR*                              Marksville, Louisiana
       North Louisiana NWR Complex*                   Farmerville, Louisiana
       Tensas River NWR*                              Tallulah, Louisiana
       Noxubee NWR*                                   Brooksville, Mississippi
       Bon Secour NWR*                                Gulf Shores, Alabama
       Okefenokee NWR*                                Folkston, Georgia

Southwest Region*                                     Albuquerque, New Mexico
       Lower Rio Grande /Santa Ana NWR Complex        Alamo, Texas
       Attwater Prairie Chicken NWR*                  Eagle Lake, Texas
       Anahuac NWR*                                   Anahuac, Texas
       Hagerman NWR*                                  Sherman, Texas
       Bosque de1 Apache NWR*                         Socorro, New Mexico
       Wichita Mountains NWR*                         Indiahoma, Oklahoma
       Salt Plains NWR*                               Jet, Oklahoma

Pacific Region                                        Portland, Oregon
       Malheur NWR                                    Princeton, Oregon
       Modoc NWR                                      Alturas, California
       Klamath Basin NWR Complex                      Tulelake, California
       Ridgefield NWR Complex*                        Ridgefield, Washington
       Sacramento NWR Complex*                        Willows, California
       Stillwater NWR*                                Fallon, Nevada
       San Francisco Bay NWR Complex*                 Newark, California
       Nisqually NWR Complex*                         Olympia, Washington
       Southeast Idaho NWR Complex*                   Pocatello, Idaho
       Tumbull NWR*                                   Cheney, Washington
       Deer Flat NWR*                                 Nampa, Idaho
       Sheldon/Hart Mountain NWR Complex*             Lakeview, Oregon




*Contacted only.

                                                 20
                                                                             APPENDIX 3
                                                                               Page.2 of 2


             Site                                      Location

Rocky Mountain Region*                           Denver, Colorado
      Fort Niobrara-Valentine NWR Complex        Valentine, Nebraska
      J. Clark Salyer NWR Complex                Upham, North Dakota
      Charles M. Russell NWR                     Lewistown, Montana
      Audubon NWR                                Coleharbor, North Dakota
      Devils Lake WMD                            Devils Lake, North Dakota
      Arrowwood NWR                              Pingree, North Dakota
      Medicine Lake NWR Complex*                 Medicine Lake. Montana

Midwest Region                                   Fort Snelling, Minnesota
      Tamarac NWR*                               Rochert, Minnesota
      Ottawa NWR*                                Oak Harbor, Ohio
      Morris Wetland Management District*        Morris, Minnesota
      Mingo NWR*                                 Puxico, Missouri
      DeSoto NWR*                                Missouri Valley, Iowa
      Crab Orchard, NWR*                         Marion, Illinois

Northeast Region*                                Hadley, Massachusetts
      Chincoteague NWR*                          Chincoteague, Virginia




                                            21
                                                                                               APPENDIX b
                                                                                               Page 1 of 10

                     United States Department of the Interior
                               FISH AND WILDLIFE SERVICE
                                      Washington, D.C. 20240




                                                                  XfJ - I 1999

In Reply Refer To:
FWs/RF99-00 199

Memorandum




                             art on Miscellaneous Receipts, U. S. Fish and Wildlife Service (E-
               IN-FWS-005-98-R)

We have reviewed the draft audit report and concur in the need to improve administrative
processes relating to administration of miscellaneous receipts. However, we continue to differ
with legal interpretations expressed in the draft report regarding authorities to collect and use
fees associated with oil and gas seismic activities on refuges. The exercise of surface and
subsurface rights is a correlative responsibility; that is, both.owners have equal responsibility of
exercising due caution with regard to the other owner’s rights. Therefore, the seismic operator, if
it possesses authority from the mineral owner, may use the surfacz in a reasonable manner to
explore for minerals. At the same time, we have the right under State law to require a seismic
operator to restore the surface to its original condition or to pay for damages to the surface. _

Mitigation of environmental damages caused by seismic exploration on refuge lands has been
administered by our field managers while acting in good faith to best carry out the mission of
preserving natural resources in a complex and diffkult legal and administrative arena. We
expressed disagreement with several legal interpretations in a preliminary draft report both at the
July 1, 1999, exit conference and in our July 9, 1999, follow-up comments. Page 18 of the IG
legal opinion, which under-pins the audit report and recommendations, acknowledges that there is
no clear statutory authority authorizing collection of fees nor how they are to be deposited. The
Office of the Solicitor from our Southeast Region in Atlanta reviewed the draft audit report and
prepared an August 16, 1999, memorandum expressing disagreement with a number of the legal
conclusions in the dr& report, A copy is attached for your information and use.

Clarifkation of legal authorities related to collection and use of receipts from environmental
damages caused predominantly by oil and gas seismic activities on refuges is crucial to our ability
to productively respond to the concerns raised in the audit Since the OfIice of the Solicitor is the
official legal advisor to Interior agencies, we urge that recommendations in the final report be
amended to remand all legal opinions to the Office of the Solicitor.



                                                 22
I
                                                                                                     APPENDIX 4
                                                                                                     Page 2 o f 10



     Our responses to the specific recommendations from the draft audit report follow:

     RECOMMENDATION A.1 : Require refuge managers to determine whether refuge resource
     users have mineral rights before issuing permits and discontinue the practice of charging use fees
     or fees for the mitigation of potential damage from oil and gas exploration activities to those
     owners who hold mineral rights on refuge properties.

    Response: We do not concur. Refuge managers are already taking into account ownership of
    mineral rights as permits are issued. Very few federally owned mineral rights are involved. In
    those cases where federally owned mineral rights are involved, mitigation payments are collected
    with the knowledge and concurrence of the Bureau of Land Management who acts as the agent
    of the government in the assessment and collection of all royalties, fees, and payments associated
    with federally held mineral rights.

    Discontinuing collection of fees for oil and gas exploration activities would be in direct
    contradiction to our interpretation of legal authorities available to us to protect the resources of .
    the National Wildlife Refuge System. Since we have a difference of opinion over legal authorities,
    we recommend this question be remanded to the Solicitor’s Office, the official legal advisor for
    the Departmenf for clarification.

    Implementing Action: The Director will request the Offke of the Solicitor issue an opinion on
    the Service’s authority to assess fees for restoration and mitigation of surface damage arising
    from oil and gas exploration activities.

    Responsible Off?cial: Chief, Division of Refuges

    Target Date: 60 days after issuance of the final audit report.

    RECOMMESDATION A. 2: Discontinue the practice of establishing accounts with the
    National Fish and Wildlife Foundation and of depositing into the accounts funds received for
    economic use activities on national wildlife refirges. In addition, any funds remaining in
    Foundation accounts should be deposited in the U.S. Treasury funds, as required by law.

    Response: We do not concur. As was discussed at the exit conference, we believe that there is
    no basis for considering this practice as beyond our legal authority and that the National Fish and
    Wildlife Foundation or another third party could act in the capacity of insuring that adequate
    restoration of damages occurs. The August 16 comments from our Southeast Region Solicitor’s
    Office also cover this topic and conclude that this is a viable alternative so long as there is no legal
    bar to the Fish and Wildlife Foundation acting in this capacity. Until we are advised otherwise,
    we assume that the National Fish and Wildlife Foundation is not legally precluded from carrying
    out this type of function as a service to protecting wildlife resources on refuges but a definitive
    answer is needed. As with recommendation 1, the question of the legal authorities needs to be
    posed to the Offrice of the Solicitor. We recommend that funds continue to be retained in the
    account until the Solicitor’s legal opinion is issued.

                                                                                                          2
                                                  23
                                                                                             APPENDIX 4
                                                                                             Page 3 of 10




 Traplementing Action: The Director will request the Office of the Solicitor issue an opinion on
 whether the National Fish and Wildlife Foundation or other third party entity can serve as an
 agent to satisfy the seismic operator’s obligation to restore and mitigate damages to the surface.

 Responsible Offkial: Chief, Division of Refuges

 Target Date: 60 days after issuance of the final audit report

 RECOMMENDATION A.3: Discontinue the practice of establishing contributed funds
 accounts with proceeds received for the economic use of national wildlife refuges resources, In
 addition., any funds remaining in contributed funds accounts should be deposited into the US,
 Treasury funds, as required by law.

 Response: We do not concur. As with recommendations 1 and 2, our interpretation of legal
authorities differs from the OIG and we request that the question be remanded to the Office of the
Solicitor for resolution. Our authority to accept contributions is found in the Fish and Wildlife
AC< 16 USC 742!@)(l) which states: “In furtherance of the purposes of this Act, the Secretary of
the Interior is authorized to accept any gifts, devises, or bequests of real and personal property, or
proceeds therefrom, or interests therein for the benefit of the United States Fish and Wildlife
Service, in performing its activities and services. Such acceptances may be subject to the terms of
any restrictive or afkmative covenant, or condition of servitude, if such terms are deemed by the
Secretary to be in accordance with law and compatible with the purpose for which acceptance is
sought.” It is clear from the discussions at the exit conference that there is not a common
understanding of type of authorities this provides. Unless we are advised otherwise by the
Solicitor’s office, we believe this provision to be adequate legal authority for acceptance of
conditional contributions such as those that have been accepted for oil and gas seismic activities.

Implementing Action: The Director will request the Office of the Solicitor issue an opinion on
whether receipts from activities such as oil and gas seismic activities can be treated as conditional
contributions.

Responsible Offkial: Chief, Division of Refkges

Target Date: 60 days afler issuance of the final audit report.

RECOMMENDATION A.4: Establish and implement controls to ensure that miscellaneous
receipts from economic activities on national wildlife refuges are assessed, collected, and
deposited in accordance with the law and Service regulations.

Response: We agree that improved administrative processes clarifying how various receipts are
to be administered would be helpful.

Implementing Action: Policy guidance will be incorporated in the effort under recommendation
A.5.



                                                  24
                                                                                            APPENDIX 4
                                                                                            Page 4 of 10



 Responsible Offkial: Chief, Division ofRefUges

Target Date: Draft policy guidance will be completed 90 days after issuance of the Solicitor’s
opinion on recommendations 1 through 3, above. Final policy will be issued 9 months following
 completion of the draft.

RECOMMENDATION A-5: Establish procedures and processes to ensure that the regions and
refiges comply with the requirements of the Refkge Manual (5 RM 17) regarding economic
activities conducted on refUge lands, including the establishment of warrant authorities for permits
issued by refuges, the use of prenumbered permits, and the proper disposition of refuge receipts.

Response: We concur with this recommendation.

Implementing Action: The 5RM17 manual chapter will be reviewed and updated to provide
improved administrative guidance. Since major questions remain related to legal authorities, this
effort cannot be effective until the issuance of legal opinions by the Solicitor on items A. 1 to A.3,
above.

Responsible Offkial: Chief, Division of Refuges

Target Date: An updated drafI manual chapter will be completed within 90 days of completion
of the Solicitor’s opinion and a final chapter will be issued 9 months following completion of the
draft.

RECOMMENDATION B.l: We recommend that the Director, U.S. Fish and Wildlife Service,
develop and implement procedures and policies to ensure that cost deductions made from Refuge
Revenue Sharing Act receipts are based either on the Service’s actual cost of administering
economic use activities on national wildlife refuges or on a supportable and reasonable method of
estimating such costs.

Response: We concur with this recommendation.

Implementing Action: Develop and implement policy guidance for Se+e manual.

Responsible Ofiicial: Chief, Division of Refkges

Target Date: Interim guidance will be issued within 90 days following issuance of the final audit
report, and final guidance will be incorporated in the updated manual chapter to be completed
under recommendation A-5.

Attachment




                                                                                                     4

                                                25
                                                                                          APPENDIX 4
                                                                                          Page 5 of 10


                   United States Department of the Interior
                                   OFFICE OF THE SOLlCITOR
                                       SoUrhew Ikgmnal Oficc
                                     Richard 8. Ruscll Federal Burlding
                                            75Spring Srrccr. s.\v,
                                          Atlanta.Georgia SO&



JHH
FWS.SE.1320
G-512
MI-3

                                          August 16, 1999


MEMORANDUM

TO:                    Sam D. Hamilton, Regional Director,
                       FWS, Atlanta, GA

FROM:                  Kahlman R. Fallon, Acting Regional Solicitor
                       Southeast Region

SUBJECT:               OffIce of Inspector General Audit of Disposition of Fees Derived from
                       Seismic Operaticns

On July 26 the Office of Inspector General (OIG) conducted an exit interview with the Service
on the above-referenced subject. John H. Harrington of this office attended the session and
provided assistance. Following that meeting, OIG prepared a Draft Audit Report, dsted July 28,
1999. which has been provided to us for our review and comments.

The draft report correctly states that the Service has no authority to grant a seismic 1 jermit witn
respect to privately owned minerals. L’nder the law of Louisiana, geophysical infor,nation
regarding a mineral deposit belongs to the mineral owner. The mineral owner alone may
authorize the conduct of seisinic exploration. If the Service were to authorize seismic
exploration on minerals not belonging to the United States, a trespass upon the rights of the
mineral owner would result. Lavne Louisiana Co. v. Sunerior Oil Co., 209 La. lOId!, 26 So.2d
20,22 (1946). The Service hti consistently asserted during the audit that its collect on of shot
hole fees does not constitute authorization to conduct seismic operations. Indeed, tie Service
insists that a seismic exploration company seeking entry upon a refuge produce doclunentation
proving that a right to conduct the activity has been received from the mineral ownex.. Otherwise
 the seismic operator is not allowed to proceed.

 For at least the past fifteen years, the Service has coilected from the operator a payIllenf Lor
surface damages caused by the seismic actlvlty. The payment has been reduced to a specitic
amount for each shot hole. A permit is issued to the operator, which sets forth stipulations for


                                                         26
                                                                                                  APPENDIX 4
I                                                                                                Page 6 of 10
                                                                                  .



                                                      2
                                                                                            ..
    the protection of refuge resources. The stipulations also reserve to the Service the light to
    recover an additional payment if the shot hole fee is inadequate to cover all of the a arnages to the
    refuge. The Service’s authority to collect shot hole fees from a seismic operator and the
    disposition of such receipts constitute the major focus of the OIG draft report. Tho re are the
    issues that we shall address.

    The OIG Office of General Counsel (OIG/OGC) reached a conclusion in its legal o,,inion’,
    which the draft report adopted without discussion, that:

            [t]he FWS [Fish and Wildlife Service] does not have general authority to impose
            charges for potential damages to the surface caused by exploration activities
            where private entities own the oil and gas rights in the underlying lands,

    Significantly, this conclusion, which drives the entire draft report, is not based upon any
    recitation of law or precedent. Rather, the OIG/OGC believes that if the seismic 01 eration
    results in damages to the surface, the Service first must seek correction of the damages by the
    seismic operator, and, failing that, institute an action for money damages in Federal District
    Court. This is an unrealistic demand that would place an intolerable burden on the lcrsonnel
    resources of the refuge to prepare litigation reports, on the Office of the Solicitor to kview and
    forward litigation requests, and on the Department of Justice to try cases that could more easily
    be resolved administratively. Moreover, there are sound legal reasons for disputing the
    OIG/OGC conclusion that the Service lacks authority to collect for surface damages in the form
    of shot hole fees.

    The Service has asserted that the shot hole fee is an “up front” standardized payment for damage
    to property owned by the United States. The Service has an obligation to:

            try to collect a claim of the United States Government for money or property
            arising out of the activities of. . . the agency.

    31 U.S.C. 371 l(a).

    Damages to refuge lands caused by seismic exploration fall within the definition of a “claim”. 4
    CFR 101.2 (“claim” refers to, “an amount of money . . . which has been determined by an
    appropriate agency official to be owed to the United States from any person, organization, or


            1
                    The legal opinion of the OIG/OGC on the authority of the Set-vice to assess shot
    hole fees for damages to refuge resources is not binding upon the Service. During thl: exit
    interview, it was requested that this issue be remanded to the Service so that an authoritative
    opinion from the Office of the Solicitor could be obtained. The draft report does not mention
    this request. We recommend that the Service’s comments to the draft report include ;t renewal of
    the request to remand to the Service the legal issue of its authority.

                                                      27
                                                                                          APPENDIX 4
                                                                                          Page 7 of 10




                                                  3

entity, except another Federal agency.“). The Service protects the interests of the Irnited States
in its permits by reserving the right to assert additional damage claims over and abt)ve the shot
hole fees, if such fees do not cover all of the damages. This additional claims provi ;ion, we
believe, means that the shot hole fee is a best estimate of damages-not a compromi ;e of a claim.
Consequently, the requirements of 3 1 U.S.C. $371 I, pertaining to the compromise of claims of
the United States, are not applicable in the shot hole fee‘context.

The OIG draft report balked at the Service’s use of the shot hole fee as a measure 0:: “potential”
damages, that have not been reduced to a sum certain. We do not view this as an in tpediment to
the collection of such fees. It must be noted, and the draft report correctly points OL .t, that a
mineral owner in Louisiana has the right to use so much of the surface as is necessay to explore
for and extract the minerals. At the conclusion of operations, the mineral owner must return the
surface as near as is practicable to its original condition. If the mineral owner uses in
weasonable amount of the surface or fails to restore the surface, an action for monl:y damages
would lie against him. See. e.%, Broussard v. Waterburv. 346 So.2d 1342 (La. App 1977); &t
v. Pan American Petroleum Corp., 168 So2d 426 (La. App. 1964). An “up front” shot hole fee
is nothing more than a standardized means of calculating the amount of the surface owner’s
claim arising from damages caused by the seismic operation. The common usage ol’the shot
hole fee in the State of Louisiana is illustrated in the case of IP Timberlands Ooerati JB Co.. Ltd.
v. Denmiss Corn.. 657 So.2d 282 (La. App. 1995) (hereafter referred to as Denmiss ).

In Denmiss the owner of 95,000 acres of timberlands entered into a lease with International
Paper (IP) for the purpose of growing forest products. Denkrnann, the lessor, reserved the right
to grant mineral leases, provided that the value of forest products destroyed or damal;ed by such
mineral operations would be paid to the lessee. In the early stages of the lease, “when
geophysical exploration work was completed, IP would send a forester to assess the Jamages to
its holdings, and Denkmann would compensate IP according to the losses it had sust;tined.” 657
So.2d at 296. This modus operandi did not last long:

        Eventually, it was agreed between Denkmann and IP that IP would seek its
        damages directly from the geophysical exploration companies that were
        performing the work, instead of from Denkmann. At this point, IP decided that
        the expense involved in sending foresters to assess damages was too burdensc-me;
        thereafter, it chose to be compensated for damages to its timber holdings by tile
        shot hole method, receiving anywhere from $50.00 to $150.00 per shot hole. This
        decision prompted IP’s practice of requiring seismic companies to appiy for a
        “petit” in order to conduct their seismic work.


657 So.Zd at 296-97.

IP, however, overstepped its legal rights. It began to issue geophysical exploration pc rmits as if
it possessed authority to grant such rights in the minerals. Denkrnann sued for violati In of his
rights as the mineral owner. IP defended, asserting that the permits were no more thaul “damage

                                                  28
                                                                                           APPENDIX 4 '
                                                                                           Page 8 of 10




releases.” The Court ruled in favor of Denkmann and upheld a verdict in his favor in excess of
$2 million. It found significance in IP’s use of a permitwhich required the paymeilt of shot hole
fees, “a method of payment normally used to compensate mineral lessees or miner21 owners for
the right to explore their minerals.” 657 So.Zd at 298. The Court stated in a footnc te:

        Although we acknowledge the existence of testimony that shot hole fees were
        often used as a quick measure for surface damages, this fact does not changl: our
        opinion as to the implications of this type of payment when it is encomnassc:d in a
        permit for seismic oneration.

657 So.2d at 298 fh. 26 (emphasis added).

This footnote makes it exceedingly clear that IP’s difficulties arose, not from the co. lection of
shot hole fees for surface damages which the Court acknowledged were common pr Ictice, but
from the collection of fees for the purpose of permitting seismic exploration of the minerals that
did not belong to it.

The Service is extremely careful, as noted above, not to fail into the trap in which IP found itself.
The permits issued by the Service are not the authorizing type of permits granted by IP. The
Service’s permits are concerned with protection of refuge resources-not with the granting of
exploration rights. Hence, the Denmiss case is a very clear indicator that the Service’s practice
of requiring shot hole fees only for surface damages is consistent with local industry practices. If
the Service must look to state laws for the measure of its rights as a surface owner, p:e Caire v.
F&on, Civ. No. 84-3184 (W.D. La. 1986), then it ought to be able to look to state law, as
interpreted by the oil and gas community and the Courts of the State, in seeking its rc:medy
against seismic exploration companies.

The next issue that the draft report takes up is the disposition of funds received in the past in the
form of shot hole fees. We agree with the conclusion that the monetary fees received directly by;
the Service must be deposited in the miscelIaneous receipts of the Treasury. Thrs 1s xequirea by
3 1 U.S.C. 3 3302(b) . We disagree with the draft report’s suggestion that the shot hole fees may
be deposited in the refuge revenue sharing account. These fees do not constitute reveimes from
the “sale” of minerals or other privileges. 16 U.S.C. 6 715s. As discussed above, the Service
does not possess, and has not asserted, the authority to grant rights with respect to privately
owned minerals.

One method of disposition of funds that we believe should be given further consideraion, but
which the draft report summarily dismissed, is the payment of shot hole fees by the seismic
operator to the Fish and Wildlife Foundation, instead of directly to the Service. If shot hole fees
are a surrogate for the seismic operator’s obligation to correct the damages done to refuge
resources, it is clear that the operator could discharge this obligation by actually correcting the
damages or contracting with a third person to perform the corrective action. An investigation
should be undertaken to ascertain whether the Foundation possesses the legal authority to serve

                                                   29
                                                                                              APPENDIX 4
I                                                                                             Page 9 of 10



                                                     5

    as the seismic operator’s agent for Ihe correction of surface damages on the refuge, If there js no
    legal bar to the Foundation acting in this capacity, the seismic operator, the Foundation, and the
    Service ought to be able to enter into an agreement for the payment and expenditurl: of shot hole
    fees to correct surface damages caused by the seismic operation.

    As in the analogous case of natural resource damages, 43 CFR Part 11, we do not b :lieve that the
    monies collected for surface damages have to be actually spent conecting the damages done*. In
    the case of natural resource damages, the assessment may be expended on a range of alternatives
    including the “restoration, rehabilitation, replacement, and/or acquisition of the equivalent of the
    injured natural resources and the services they provide.” 43 CFR 11.82(a). While th:se natural
    resource damage regulations are not applicable to seismic exploration, the remedial concepts
    employed in those regulations could be adapted to the case of damage caused by seismic
    exploration. Imposition of appropriate administrative controls on this process should relieve any
    fear that use of the Foundation would result in fiscal abuses.

    In conclusion, while the draft report had many important recommendations to make regarding the
    Service’s handling of shot hole fees, it is our opinion that it proceeded from an inco]Tect basis
    that the Service does not possess authority to collect such fees. We believe that assci ssment of
    shot hole fees is clearly within the authority of the Service to protect Federally owntd lands and
    collect for the damage to such lands. Moreover, the method utilized by the Service to collect for
    surface damages is one that is entrenched in the culture of the Louisiana oil and gas industry.
    Shot hole fees are well received by the industry, acknowledged by State courts, convenient to
    assess, and protective of the United States interests.




           2
                    A three party agreement among the seismic operator, Foundation, and the Service
    for the purpose of correcting damages suffered by the refuge would not be constrained by the
    limitations, for example, set forth in Section 305 of the Federal Land Policy and Maragement
    Act, 43 U.S.C. !j 1735. That provision authorizes the Bureau of Land Management to assess
    monetary damages for injuries to the public lands, but it must expend such funds only for the
    particular rehabilitation work necessitated by the action which led to the receipt of th: funds:
    Excess monies must be refunded to the party from whom they were collected or depcsited in the
    miscellaneous receipts of the Treasury. Opinion of the Comptroller General, B-2048:/4 (July 28,
     1982). The limitations contained in that provision are not applicable to the Service or the
    Foundation. Therefore, if shot hole fees may be directed to the Foundation, the parks to any
    agreement for the expenditure of such fees are free, within the bounds of reason, to define the
    types of creative remedial action that will be funded.

                                                         30
                                                                                            APPENDIX 4
                                                                                            Page 10 of 10




                                                 6                                      .

Further inquiries regarding this matter may be directed to John H. Harrington at (4114) 3; l-6342.




                                              Kahlman R. Fallon
                                              Acting Regional Solicitor




                                                  31
                                                                      APPENDIX 5


         STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
         Reference             Status                   Actions Required

         A.1             Unresolved.         Provide a response to the revised
                                             recommendation. If concurrence is
                                             indicated, provide an action plan that
                                             includes a target date and the title of
                                             the official responsible for
                                             implementation. If nonconcurrence is
                                             indicated, provide reasons for the
                                             nonconcurrence.

     A. 2 and A.3        Unresolved.         Reconsider the recommendations, and
                                             provide action plans that include target
                                             dates and titles of the officials
                                             responsible for implementation.

   A.4, AS, and B.l      Resolved; not       No further response to the Office of
                         implemented.        Inspector General is required. The
                                             recommendations will be referred to
                                             the Assistant Secretary for Policy,
                                             Management and Budget for tracking
                                             of implementation.




                                        32
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N. W.                                   l-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420


                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Numbers
      l-800-424-508 1
      TDD l-800-354-0996

FTS/Commercial Numbers
    (202) 208-5300
    TDD (202) 208-2420
